               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-02642-21




    Combined Assessment Program 

            Review of the 

          Northern Arizona 

       VA Health Care System 

          Prescott, Arizona 





December 3, 2013

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Northern Arizona VA Health Care System
                 FPPE           Focused Professional Practice Evaluation
                 FTE            full-time employee equivalent
                 FY             fiscal year
                 HCHV           Health Care for Homeless Veterans
                 HPC            hospice and palliative care
                 MEB            Medical Executive Board
                 MH             mental health
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 QM             quality management
                 RME            reusable medical equipment
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                      CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishment........................................................................................                    2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     5

  Medication Management – CS Inspections .............................................................                             8

  Coordination of Care – HPC ...................................................................................                  11

  Pressure Ulcer Prevention and Management .........................................................                              13

  Nurse Staffing .........................................................................................................        15

  Construction Safety.................................................................................................            16


Appendixes
  A. Facility Profile ....................................................................................................        18

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                                 19

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              33

  F. Report Distribution .............................................................................................            34

  G. Endnotes ...........................................................................................................         35





VA OIG Office of Healthcare Inspections
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
September 9, 2013.

Review Results: The review covered seven activities.                            We     made     no
recommendations in the following activity:

   Construction Safety

The facility’s reported accomplishment was the Health Care for Homeless Veterans
Program.

Recommendations: We made recommendations in the following six activities:
Quality Management: Report results of Focused Professional Practice Evaluations for
newly hired licensed independent practitioners to the Medical Executive Board. Review
the quality of entries in the electronic health record for all services. Monitor the
electronic health record copy and paste function. Implement a quality control policy for
scanning.

Environment of Care: Remove expired medications from patient care areas. Ensure
lower shelves in the distribution storage area are solid and at least 8 inches above the
floor. Maintain distribution storage area humidity and temperatures within acceptable
levels.

Medication Management – Controlled Substances Inspections: Amend facility policy to
include that the Controlled Substances (CS) Coordinator and inspectors must be free
from conflicts of interest, to include that the CS Coordinator must have complete
understanding of CS policies and the Veterans Health Administration inspection
process, and to include requirements for new CS inspector orientation and annual
training thereafter. Initiate actions to address the two identified deficiencies, and correct
all deficiencies identified during annual physical security surveys. Provide quarterly
trend reports to the facility Director. Ensure that all non-pharmacy areas with CS are
inspected monthly, that inspections are randomly scheduled and completed on the day
initiated, and that inspectors verify hard copy orders for five dispensing activities.
Inspect the main pharmacy vault and pharmacy emergency cache monthly, and include
all required elements in inspections.

Coordination of Care – Hospice and Palliative Care: Ensure that the Palliative Care
Consult Team includes a dedicated administrative support person and that non-hospice
and palliative care clinical staff who provide care to patients at the end of their lives
receive end-of-life training. Amend facility policy to assign a minimum 0.25 full-time




VA OIG Office of Healthcare Inspections                                                           i
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


employee equivalent mental health professional and an administrative support person to
the team.

Pressure Ulcer Prevention and Management: Accurately document location, stage, risk
scale score, and date pressure ulcer acquired for all patients with pressure ulcers.
Ensure all patients discharged with pressure ulcers receive dressing supplies prior to
being discharged. Provide and document pressure ulcer education for patients at risk
for and with pressure ulcers and/or their caregivers. Establish staff pressure ulcer
education requirements.

Nurse Staffing: Monitor the staffing methodology that was implemented in August 2013.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 20–32, for
the full text of the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Pressure Ulcer Prevention and Management

   	   Nurse Staffing

   	   Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
September 9, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the



VA OIG Office of Healthcare Inspections                                                          1
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Northern Arizona VA Health Care System, Prescott, Arizona,
Report No. 10-02996-84, February 10, 2011).

During this review, we presented crime awareness briefings for 31 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
205 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

HCHV Program
The HCHV Program is a multidisciplinary program that serves homeless veterans and
those at risk for homelessness. The facility has partnered with three counties in
Northern Arizona, the Public Housing Authority, the Department of Housing and Urban
Development, and local community agencies to help homeless veterans and their
families secure long-term housing and temporary shelter. The HCHV Program provides
case management and supportive services and served approximately 200 veterans
during FY 2013. The HCHV team also worked with community partners to launch the
first family shelter in Northern Arizona and has participated in three separate homeless
stand downs. Currently, the program has used 98 percent of the vouchers received
from the Department of Housing and Urban Development – VA Supportive Housing.
Additionally, during FY 2013, the HCHV Program received a 3-year accreditation from
the Commission on Accreditation of Rehabilitation Facilities.




VA OIG Office of Healthcare Inspections                                                          2
                                          CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                             Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
 X     FPPEs for newly hired licensed independent            Nine profiles reviewed:
       practitioners complied with selected                   None of the results of the nine completed
       requirements.                                            FPPEs were reported to the MEB.
       Local policy for the use of observation beds
       complied with selected requirements.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 NA    Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
 X     There was an EHR quality review committee,            Three quarters of EHR Committee meeting
       and the review process complied with                  minutes reviewed:
       selected requirements.                                 There was no evidence that the quality of
                                                               entries in the EHR was reviewed.




VA OIG Office of Healthcare Inspections                                                                       3
                                          CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


 NC           Areas Reviewed (continued)                                         Findings
  X    The EHR copy and paste function was                   Three quarters of EHR Committee meeting
       monitored.                                            minutes reviewed:
                                                              There was no evidence that the copy and
                                                               paste function was monitored.
 X     Appropriate quality control processes were in          The facility did not have a policy that
       place for non-VA care documents, and the                addressed quality control processes for
       documents were scanned into EHRs.                       scanning.
       Use and review of blood/transfusions
       complied with selected requirements.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that the results of FPPEs for
newly hired licensed independent practitioners are reported to the MEB.

2. We recommended that processes be strengthened to ensure that the quality of entries in
the EHR is reviewed for all services.

3. We recommended that processes be strengthened to ensure that the EHR copy and paste
function is monitored.

4.    We recommended that the facility implement a quality control policy for scanning.




VA OIG Office of Healthcare Inspections                                                                       4
                                          CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected two CLCs, the acute care medical and telemetry inpatient units, SPS and
distribution, the emergency department, a primary care clinic, and outpatient surgery.
Additionally, we reviewed relevant documents, conversed with key employees and managers,
and reviewed all SPS employee training and competency files. The table below shows the
areas reviewed for this topic. The areas marked as NC needed improvement. Any items that
did not apply to this facility are marked NA.

 NC           Areas Reviewed for General EOC                                     Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                       
       Environmental safety requirements were met.
       Infection prevention requirements were met.
 X     Medication safety and security requirements            There were expired medications in an
       were met.                                               automated dispensing machine in the
                                                               outpatient surgery area.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
            Areas Reviewed for Hemodialysis
 NA    The facility had policy detailing the cleaning           
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
 NA    Monthly biological water and dialysate testing
       was conducted and included required
       components, and identified problems were
       corrected.
 NA    Employees received training on bloodborne
       pathogens.


VA OIG Office of Healthcare Inspections                                                                       5
                                          CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


 NC          Areas Reviewed for Hemodialysis                                      Findings
                          (continued)
 NA    Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
 NA    Selected EOC/infection prevention/safety
       requirements were met.
 NA    The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines          
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach          
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
 NA    The facility had policies/procedures/guidelines          
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training                 
       and competency assessment.
 NA    Operating room employees who performed                   
       immediate use (flash) sterilization received
       training and competency assessment.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
 X     Selected requirements for SPS                          Lower shelves in the distribution storage area
       decontamination and sterile storage areas               were not solid and at least 8 inches above the
       were met.                                               floor.
                                                              Distribution storage area humidity levels were
                                                               out of range for 9 of 25 days.
                                                              Distribution storage area temperatures were
                                                               out of range for 17 of 25 days.
       The facility complied with any additional              
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

5. We recommended that processes be strengthened to ensure that all expired medications
are removed from patient care areas.

6. We recommended that processes be strengthened to ensure that lower shelves in the
distribution storage area are solid and at least 8 inches above the floor.


VA OIG Office of Healthcare Inspections                                                                       6
                                          CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


7. We recommended that processes be strengthened to ensure that distribution storage area
humidity and temperatures are maintained within acceptable levels and that compliance be
monitored.




VA OIG Office of Healthcare Inspections                                                                       7
                                          CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of the CS Coordinator and nine CS inspectors and inspection documentation from
nine CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC                   Areas Reviewed                                            Findings
  X   Facility policy was consistent with VHA               Facility CS inspection policy reviewed. Facility
      requirements.                                         policy did not:
                                                             Address that the CS Coordinator and
                                                               inspectors must be free from conflicts of
                                                               interest.
                                                             Include that the CS Coordinator must have a
                                                               complete understanding of CS policies and
                                                               the VHA CS inspection process.
                                                             Include requirements for new CS inspector
                                                               orientation and annual training thereafter.
 X    VA police conducted annual physical security          Annual physical security surveys for past
      surveys of the pharmacy/pharmacies, and any           2 years reviewed:
      identified deficiencies were corrected.                Two identified deficiencies had not been
                                                               corrected, and managers did not have action
                                                               plans or an explanation for why the items
                                                               remained unresolved.
      Instructions for inspecting automated
      dispensing machines were documented,
      included all required elements, and were
      followed.
 X    Monthly CS inspection findings summaries              Summary of CS inspection findings for past
      and quarterly trend reports were provided to          6 months and quarterly trend reports for past
      the facility Director.                                4 quarters reviewed:
                                                             None of the quarterly trend reports were
                                                               provided to the facility Director.
      CS Coordinator position description(s) or
      functional statement(s) included duties, and
      CS Coordinator(s) completed required
      certification and were free from conflicts of
      interest.
      CS inspectors were appointed in writing,
      completed required certification and training,
      and were free from conflicts of interest.




VA OIG Office of Healthcare Inspections                                                                        8
                                          CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


 NC             Areas Reviewed (continued)                                        Findings
  X    Non-pharmacy areas with CS were inspected             Documentation of 9 CS areas inspected during
       in accordance with VHA requirements, and              the past 6 months reviewed:
       inspections included all required elements.            Thirteen of 54 (24 percent) required monthly
                                                                inspections were not conducted.
                                                              Monthly inspections were not consistently
                                                                completed on the same day they were
                                                                initiated.
                                                              Distinguishable patterns were identified in two
                                                                inspection areas. One area had 4 inspections
                                                                completed during the 2nd week of the month,
                                                                and one area had 5 inspections completed
                                                                during the 3rd week of the month.
                                                              Inspectors did not consistently verify hard
                                                                copy orders for five randomly selected
                                                                dispensing activities in all non-pharmacy
                                                                areas.
 X     Pharmacy CS inspections were conducted in             Documentation of pharmacy CS inspections
       accordance with VHA requirements and                  during the past 6 months reviewed:
       included all required elements.                        One monthly inspection of the main pharmacy
                                                                vault was not conducted.
                                                              One monthly inspection of the emergency
                                                                cache was not conducted.
                                                              Inspectors did not consistently verify the audit
                                                                trail by comparing drugs held for destruction
                                                                with the destroyed drugs report.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

8. We recommended that facility policy be amended to include that the CS Coordinator and
inspectors must be free from conflicts of interest and that the CS Coordinator must have a
complete understanding of CS policies and the VHA CS inspection process and to include the
requirements for new CS inspector orientation and annual training thereafter.

9. We recommended that managers initiate actions to address the two identified deficiencies
and that processes be strengthened to ensure that all deficiencies identified during annual
physical security surveys are corrected.

10. We recommended that processes be strengthened to ensure that quarterly trend reports are
provided to the facility Director.

11. We recommended that processes be strengthened to ensure that all non-pharmacy areas
with CS are inspected monthly, that inspections are randomly scheduled and completed on the
day initiated, and that inspectors verify hard copy orders for five dispensing activities and that
compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                       9
                                          CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


12. We recommended that processes be strengthened to ensure that the main pharmacy vault
and pharmacy emergency cache are inspected monthly and that inspections include all required
elements and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                      10
                                          CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 21 employee training records (9 HPC staff records and 12 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC                    Areas Reviewed                                             Findings
  X    A PCCT was in place and had the dedicated             List of staff assigned to the PCCT reviewed:
       staff required.                                        An administrative support person had not
                                                                been dedicated to the PCCT.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
 X     HPC staff and selected non-HPC staff had               There was no evidence that nine non-HPC
       end-of-life training.                                   staff had end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.




VA OIG Office of Healthcare Inspections                                                                      11
                                          CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


 NC            Areas Reviewed (continued)                                        Findings
  X    The facility complied with any additional             Local policy reviewed:
       elements required by VHA or local policy.              The policy was not consistent with VHA’s
                                                               requirement for a minimum 0.25 FTE MH
                                                               professional and an administrative support
                                                               person to be assigned to the PCCT.

Recommendations

13. We recommended that processes be strengthened to ensure that the PCCT includes a
dedicated administrative support person.

14. We recommended that processes be strengthened to ensure that non-HPC clinical staff
who provide care to patients at the end of their lives receive end-of-life training.

15. We recommended that facility policy be amended to include that a minimum 0.25 FTE MH
professional and an administrative support person be assigned to the PCCT.




VA OIG Office of Healthcare Inspections                                                                      12
                                          CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 15 EHRs of patients with pressure ulcers (3 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
2 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected one patient room. The table below shows the areas reviewed for this
topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                     Areas Reviewed                                           Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                    In 13 of the 15 EHRs, staff did not
       documenting location, stage, risk scale score,         consistently document the location, stage, risk
       and date acquired.                                     scale score, and/or date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
 X     If the patient’s pressure ulcer was not healed         Two of the applicable six EHRs did not
       at discharge, a wound care follow-up plan was           contain evidence that patients received
       documented, and the patient was provided                dressing supplies prior to discharge.
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                      13
                                          CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


 NC            Areas Reviewed (continued)                                         Findings
  X    The facility defined requirements for patient         Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and           education requirements reviewed:
       education on pressure ulcer prevention and             For 12 of the patients at risk for/with a
       development was provided to those at risk for           pressure ulcer, EHRs did not contain
       and with pressure ulcers and/or their                   evidence that education was provided.
       caregivers.
 X     The facility defined requirements for staff            The facility had not developed staff pressure
       pressure ulcer education, and acute care staff          ulcer education requirements.
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

16. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer acquired for all
patients with pressure ulcers and that compliance be monitored.

17. We recommended that processes be strengthened to ensure that all patients discharged
with pressure ulcers receive dressing supplies prior to being discharged and that compliance be
monitored.

18. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.

19. We recommended that the facility establish staff pressure ulcer education requirements and
that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                        14
                                          CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on two inpatient units
(acute medical/surgical and long-term care).6

We reviewed relevant documents, and we conversed with key employees. The table below
shows the areas reviewed for this topic. The area marked as NC needed improvement. Any
items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                          Findings
  X    The facility completed the required steps to           Expert panels were not convened until
       develop a nurse staffing methodology by the             August 16, 2013.
       deadline.
 NA    The unit-based expert panels followed the
       required processes and included all required
       members.
 NA    The facility expert panel followed the required
       processes and included all required members.
 NA    Members of the expert panels completed the
       required training.
 NA    The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
 NA    The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

20. We recommended that nursing managers monitor the staffing methodology that was
implemented in August 2013.




VA OIG Office of Healthcare Inspections                                                                      15
                                          CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.7

We inspected the CLC renovation project. Additionally, we reviewed relevant documents and
20 training records (10 contractor records and 10 employee records), and we conversed with
key employees and managers. The table below shows the areas reviewed for this topic. Any
items that did not apply to this facility are marked NA. The facility generally met requirements.
We made no recommendations.

 NC                    Areas Reviewed                                            Findings
       There was a multidisciplinary committee to
       oversee infection control and safety
       precautions during construction and
       renovation activities and a policy outlining the
       responsibilities of the committee, and the
       committee included all required members.
       Infection control, preconstruction, interim life
       safety, and contractor tuberculosis risk
       assessments were conducted prior to project
       initiation.
       There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
       Site inspections were conducted by the
       required multidisciplinary team members at
       the specified frequency and included all
       required elements.
       Infection Control Committee minutes
       documented infection surveillance activities
       associated with the project(s) and any
       interventions.
       Construction Safety Committee minutes
       documented any unsafe conditions found
       during inspections and any follow-up actions
       and tracked actions to completion.
       Contractors and designated employees
       received required training.
       Dust control requirements were met.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.




VA OIG Office of Healthcare Inspections                                                                      16
                                          CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


 NC            Areas Reviewed (continued)                                         Findings
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                      17
                                    CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ
                                                                                              Appendix A


    Facility Profile (Prescott/649) FY 2013 through August 2013a
Type of Organization                                                            Secondary
Complexity Level                                                                3-Low complexity
Affiliated/Non-Affiliated                                                       Affiliated
Total Medical Care Budget in Millions                                           $176.9
Number (through September 2013) of:
    Unique Patients                                                            25,802
    Outpatient Visits                                                          262,203
    Unique Employeesb                                                          958
Type and Number of Operating Beds:
    Hospital                                                                   27
    CLC                                                                        85 (16 temporarily out
                                                                                of service due to
                                                                                construction)
   MH                                                                          120
Average Daily Census:
   Hospital                                                                    11
   CLC                                                                         64
   MH                                                                          86
Number of Community Based Outpatient Clinics                                    5
Location(s)/Station Number(s)                                                   Kingman/649GA
                                                                                Flagstaff/649GB
                                                                                Lake Havasu/649GC
                                                                                Anthem/649GD
                                                                                Cottonwood/649GE
VISN Number                                                                     18




a
    All data is for FY 2013 through August 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                                18
                                   CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ
                                                                                             Appendix B


                             VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient scores for quarters 3–4 of FY 2012 and quarters 1–2 of FY 2013
and overall outpatient satisfaction scores for FY 2012.

Table 1

                       Inpatient Scores                               Outpatient Scores
                      FY 2012     FY 2013                                 FY 2012
                  Inpatient        Inpatient       Outpatient      Outpatient        Outpatient         Outpatient
                  Score            Score           Score           Score             Score              Score
                  Quarters 3–4     Quarters 1–2    Quarter 1       Quarter 2         Quarter 3          Quarter 4
    Facility      65.5             68.7            61.5            50.6              52.4               51.7
    VISN          66.7             64.9            51.1            52.5              49.9               53.3
    VHA           65.0             65.5            55.0            54.7              54.3               55.0



                         Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2009, and June 30, 2012.d

Table 2

                                   Mortality                                     Readmission
                 Heart Attack     Heart           Pneumonia       Heart Attack      Heart           Pneumonia
                                  Failure                                           Failure
    Facility     **               10.9            12.4            *                 *               *
    U.S.
    National     15.5             11.6            12.0            19.7              24.7            18.5
     * No data is available from the facility for this measure. 

     ** The number of cases is too small (fewer than 25) to reliably tell how well the facility is performing. 




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                              19
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ
                                                                                       Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:           November 4, 2013

       From:           Director, VA Southwest Health Care Network (10N18)

       Subject:        CAP Review of the Northern Arizona VA Health Care
                       System, Prescott, AZ

       To:             Director, San Diego Office of Healthcare Inspections (54SD)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed the document and concur with the recommendations.
          Corrective action plans have been established with planned completion
          dates, as detailed in the attached report.

       2. If 	you have any questions or concerns, please contact
          Sally Compton, Executive Assistant to the Network Director, VISN 18,
          at 480-397-2777.




           Susan P. Bowers




VA OIG Office of Healthcare Inspections                                                         20
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:           November 1, 2013

       From:           Director, Northern Arizona VA Health Care System (649/00)

       Subject:        CAP Review of the Northern Arizona VA Health Care
                       System, Prescott, AZ

       To:             Director, VA Southwest Health Care Network (10N18)

       1. I   	have  reviewed   and    concur    with  the    findings  and
          recommendations in the draft report of the Office of the Inspector
          General Combined Assessment Program Review conducted the week
          of September 9, 2013.

       2. Corrective actions plans have been established with target completion
          dates, as detailed in the attached report.




VA OIG Office of Healthcare Inspections                                                         21
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
the results of FPPEs for newly hired licensed independent practitioners are reported to
the MEB.

Concur

Target date for completion: March 1, 2014

Facility response: In order to ensure that the results of FPPEs for newly hired licensed
independent practitioners are reported to the MEB the following steps have been taken:

The Professional Standards Board (PSB) meets in conjunction with the Medical
Executive Board (MEB). Actions of the PSB were not fully documented in the MEB
minutes. As of September 1, 2013, the provider(s) under review and FPPE action will
be documented in the MEB minutes to include specific provider names.

The Lead Credentialer is responsible for this change. The process is monitored by use
of the “Verification of Professional Practice Evaluation” form that is sent to the Service
Line Manager or Designee for completion two weeks prior to the due date, along with
the date the review will be taken to the MEB/PSB, the oversight committee. The Lead
Credentialer will monitor timely return of the evaluation form.

In order to ensure sustainability, monitoring of documentation of PSB review of FPPEs
in the MEB minutes will continue until 100% compliance is achieved in three
consecutive months.

Recommendation 2. We recommended that processes be strengthened to ensure that
the quality of entries in the EHR is reviewed for all services.

Concur

Target date for completion: March 1, 2014

Facility response: In order to ensure that the quality of entries in the EHR is reviewed for
all services, the following steps have been taken:

Chart Audit templates from each Service Line have been reviewed and approved by the
Medical Records Committee (MRC). The quarterly schedule of reporting audit results at
the MRC meeting has been revised and the scheduled reporting dates for each service
line have been reviewed and clarified with each respective process owner. Reminder


VA OIG Office of Healthcare Inspections                                                         22
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


notification will be sent to each Service Line Manager and/or respective process owner
two weeks prior to their scheduled presentation date. The MRC Chairperson and
Co-Chairperson are responsible for assuring these changes are made and
implemented.

The MRC Chairperson or designee will provide quarterly reporting of MRC activity,
including Service Line chart audit reviews with action plans for non-compliant monitors
to the oversight committee, Quality Performance Board (QPB).

In order to ensure sustainability, specific tracking and monitoring of each service line
chart review will be presented at the monthly QPB oversight committee and will
continue until 90% compliance is achieved in three consecutive months.

Recommendation 3. We recommended that processes be strengthened to ensure that
the EHR copy and paste function is monitored.

Concur

Target date for completion: March 1, 2014

Facility response: In order to ensure that the EHR copy and paste function is monitored,
the following steps have been taken:

The Coding Compliance Specialist will assume the duty of monitoring and auditing Copy
and Paste function on a monthly basis and will provide a report of non-compliant
providers to the Compliance Officer. The Compliance Officer will provide training to the
providers who are not in compliance with NAVAHCS Copy and Paste HCSM. Chief of
Health Information Management System (HIMS) and the Compliance Officer are
responsible for implementation and ongoing tracking.

Review of the copy and paste function will be monitored monthly by the Coding
Compliance Specialist and the Compliance Officer. Results of the copy and paste
function audits will be reviewed monthly at the MRC meeting with quarterly reporting to
QPB, the oversight committee.

In order to ensure sustainability, monitoring of copy and paste function will continue as a
quarterly report item to QPB until 90% compliance is achieved in three consecutive
reporting periods.

Recommendation 4. We recommended that the facility implement a quality control
policy for scanning.

Concur

Target date for completion: December 31, 2013




VA OIG Office of Healthcare Inspections                                                         23
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


Facility response: In order to ensure that a quality control policy for scanning is
implemented, the following steps have been taken:

The Chief of HIMS has developed the Quality Control for Scanning HCSM. Upon
HCSM approval, all NAVAHCS staff charged with medical record scanning will receive
education on the HCSM contents as presented by the Chief of HIMS and/or designee.
The Chief of HIMS is responsible for this HCSM and staff education.

Tracking staff members who have received this education will be done by the Chief of
HIMS and/or designee. Quarterly reports will be presented to the oversight committee,
QPB, until all applicable staff have received this education and appropriate compliance
is documented.

In order to ensure sustainability, quarterly reports will be presented to QPB until all
applicable staff have received this education. In addition, all new employees charged
with medical record scanning will receive training on this HCSM during their New
Employee Orientation.

Recommendation 5. We recommended that processes be strengthened to ensure that
all expired medications are removed from patient care areas.

Concur

Target date for completion: March 1, 2014

Facility response: In order to ensure that all expired medications are removed from the
Outpatient Surgery Unit, the following steps have been taken:

Beginning November 1, 2013, the Pyxis units in the Outpatient Surgery Unit will be
inventoried by a staff member from Pharmacy and the Outpatient Surgery Unit on a
monthly basis. The Chief of Pharmacy and the Specialty & Diagnostics (S&D) Service
Line Manager are responsible for this process.

Findings of the inventory will be documented and reported monthly to the Chief of
Pharmacy and the S&D Service Line Manager with quarterly reports to the oversight
committee, the Medical Executive Board.

In order to ensure sustainability, monitoring will continue until 100% compliance is
achieved in three consecutive months.

Recommendation 6. We recommended that processes be strengthened to ensure that
lower storage shelves in the distribution storage area are solid and at least 8 inches
above the floor.

Concur

Target date for completion: March 1, 2014



VA OIG Office of Healthcare Inspections                                                         24
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


Facility response: In order to ensure that lower storage shelves in the distribution
storage area are solid and at least 8 inches above the floor, the following steps have
been taken:

Shelf liners will be purchased and installed on the bottom shelf of all wire rack shelving
throughout Distribution storage areas.

Logistics Service Line is responsible for purchasing and installing the shelf liners and
Facilities Management Service Line is responsible for providing support to raise the
bottom shelves to above 8 inches above the floor.

This shelving requirement will be added to the Environment of Care Action Item
Tracking document and will be monitored by the Logistics Officer with results reported
quarterly to the oversight committee, EOC/SB.

In order to ensure sustainability, monitoring of shelving requirements will continue until
100% compliance is achieved in three consecutive months.

Recommendation 7. We recommended that processes be strengthened to ensure that
distribution storage area humidity and temperatures are maintained within acceptable
levels and that compliance be monitored.

Concur

Target date for completion: March 1, 2014

Facility response: In order to ensure that distribution storage area humidity and
temperatures are maintained within acceptable levels and that compliance is monitored,
the following steps have been taken:

A new Temp Trak (temperature monitoring system) monitoring access point will be
added to the 4A Distribution area. Access and training related to this new monitoring
system will be provided to the Distribution staff by the FM Service Line Assistant
Manager. Logistics Service Line, FM Service Line and ISSL are responsible for this
new process.

Humidity and temperature monitors with reports of non-compliance in distribution
storage areas will be included in the Environment of Care Action Item tracking
document and will be monitored monthly by the Assistant Facilities Manager. Results
will be reported quarterly to the Oversight Committee, EOC/SB.

In order to ensure sustainability, monitoring of humidity and temperature levels will
continue until 100% compliance is achieved in three consecutive months.

Recommendation 8. We recommended that facility policy be amended to include that
the CS Coordinator and inspectors must be free from conflicts of interest and that the
CS Coordinator must have a complete understanding of CS policies and the VHA CS



VA OIG Office of Healthcare Inspections                                                         25
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


inspection process and to include the requirements for new CS inspector orientation
and annual training thereafter.

Concur

Target date for completion: December 1, 2013

Facility response: In order to ensure that facility policy is amended to include that the
CS Coordinator and inspectors must be free from conflicts of interest and that the CS
Coordinator must have a complete understanding of CS policies and the VHA CS
inspection process and to include the requirements for new CS inspector orientation,
the following steps have been taken:

The Controlled Substance Coordinator has developed the Inspection of Controlled
Substances HCSM No. 11-58. Upon HCSM approval, all NAVAHCS staff charged with
controlled substance inspection will receive education on the HCSM contents as
presented by the CS Coordinator. The new HCSM specifies that the CS Coordinator
and inspectors are free from conflicts of interest and that the CS Coordinator has a
complete understanding of CS policies and the VHA CS inspection process. The CS
Coordinator is responsible for this HCSM and staff education.

Tracking staff members who have received this education will be done by the CS
Coordinator. Quarterly reports will be presented to the Facility Director until all
applicable staff have received this education and appropriate compliance is
documented.

In order to ensure sustainability, quarterly reports will be presented to the Facility
Director until all applicable staff have received this education. In addition, employees
newly assigned to controlled substance inspection will receive training on this HCSM
during their orientation to the controlled substance inspection program.

Recommendation 9. We recommended that managers initiate actions to address the
two identified deficiencies and that processes be strengthened to ensure that all
deficiencies identified during annual physical security surveys are corrected.

Concur

Target date for completion: March 1, 2014

Facility response: In order to ensure that all deficiencies identified during the annual
physical security surveys are corrected, the following steps have been taken:

The deficiencies identified in the 2012 annual physical security survey were addressed
via work order for a vault door and gate replacement, however, at that time, funds were
not available. In October 2013, a work order was resubmitted and a purchase package
developed for a new vault door and gate that meet GSA 5 requirements. After
installation of the new vault door and gate, the Pharmacy SLM will notify the Chief of
Police of compliance via Memorandum. Future deficiencies identified in the annual


VA OIG Office of Healthcare Inspections                                                         26
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


physical security survey will be reported to the Environment of Care (EOC) Board.
Action plans will be developed and reported on a monthly basis to the EOC Board until
the issue is resolved. Oversight of the EOC Board tracking will be conducted by the
Executive Leadership Council.

Recommendation 10. We recommended that processes be strengthened to ensure
that quarterly trend reports are provided to the facility Director.

Concur

Target date for completion: March 1, 2014

Facility response: In order to ensure that quarterly trend reports on Controlled
Substance Inspections are completed and provided to the Facility Director, the following
steps have been taken:

The new HCSM on Inspection of Controlled Substances specifies that the CS
Coordinator must prepare and submit a Quarterly Trends Report to the Facility Director
summarizing any identified discrepancies or problematic trends and potential areas for
improvement. The report is to be trended by location, drug and number of doses. The
CS Coordinator will work in collaboration with facility Data Analyst to create a process
for standardized data entry. Reports will be generated from data entries.

The CS Coordinator is responsible for preparing and submitting the quarterly trends
report to the Facility Director.

In order to ensure sustainability, quarterly reports will be submitted to the Facility
Director.

Recommendation 11. We recommended that processes be strengthened to ensure
that all non-pharmacy areas with CS are inspected monthly, that inspections are
randomly scheduled and completed on the day initiated, and that inspectors verify hard
copy orders for five dispensing activities and that compliance be monitored.

Concur

Target date for completion: March 1, 2014

Facility response: The new HCSM on Inspection of Controlled Substances specifies that
the CS Inspector conducts random, unannounced inspections that are completed on the
day the inspection is initiated. The HCSM also specifies that the CS Inspector verifies
that there is an order for five randomly selected dispensing activities on each unit
inspected. As per Recommendation #8, all CS Inspectors will receive education on this
HCSM. The CS Coordinator is responsible for this HCSM, CS Inspectors’ education,
and confirming the monthly inspection report contains all required information.




VA OIG Office of Healthcare Inspections                                                         27
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


Tracking areas of inspection, random scheduling, verification of orders, and completion
of the inspection on the day initiated will be done monthly by the CS Coordinator.
Quarterly reports of this data will be presented to the Facility Director.

In order to ensure sustainability, quarterly reports will be presented to the Facility
Director. Additionally, reporting to the OIG will continue until 100% compliance is
achieved for three consecutive months.

Recommendation 12. We recommended that processes be strengthened to ensure
that the main pharmacy vault and pharmacy emergency cache are inspected monthly
and that inspections include all required elements and that compliance be monitored.

Concur

Target date for completion: March 1, 2014

Facility response: The new HCSM on Inspection of Controlled Substances specifies that
the CS Inspector conducts monthly inspection of the main pharmacy vault and
pharmacy emergency cache. As per Recommendation #8, all CS Inspectors will
receive education on this HCSM.

The CS Coordinator is responsible for this HCSM, CS Inspectors’ education, and that
the monthly inspections are done in the main pharmacy vault and pharmacy emergency
cache.

Tracking these areas of inspection will be done monthly by the CS Coordinator.
Quarterly reports of this data will be presented Facility Director.

In order to ensure sustainability, quarterly reports will be presented to the Facility
Director. Additionally, reporting to the OIG will continue until 100% compliance is
achieved for three consecutive months.

Recommendation 13. We recommended that processes be strengthened to ensure
that the PCCT includes a dedicated administrative support person.

Concur

Target date for completion: December 1, 2013

Facility response: In order to ensure that the PCCT includes a dedicated administrative
support person, the following steps have been taken:

The position description for the GEC Administrative Support Assistant will be updated to
reflect that 0.25 of the FTE is dedicated to hospice/palliative care support. This update
has been discussed with the current Administrative Support Assistant and she concurs
with this change to her position description. The Geriatric and Extended Care (GEC)
SLM is responsible for assuring this change is completed.



VA OIG Office of Healthcare Inspections                                                         28
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


Recommendation 14. We recommended that processes be strengthened to ensure
that non-HPC clinical staff who provide care to patients at the end of their lives receive
end-of-life training.

Concur

Target date for completion: March 1, 2014

Facility response: In order to ensure that the non-HPC clinical staff who provide care to
patients at the end of their lives receive end-of-life training, the following steps have
been taken:

The End of Life TMS module will be added as required annual education for all
identified non-HPC clinical staff who care for patients at the end of life. The GEC
Service Line Manager and the Palliative Care Coordinator (PCC) are responsible for
assuring this training is completed by all identified non-HPC clinical staff.

With the assistance of the TMS administrator, the PCC will monitor and track monthly
reports on training that has been completed. Results will be reported quarterly to the
Nurse Executive Board (NEB), the oversight committee.

In order to ensure sustainability, monitoring will continue until all required staff have
completed training.

Recommendation 15. We recommended that facility policy be amended to include that
a minimum 0.25 FTE MH professional and an administrative support person be
assigned to the PCCT.

Concur

Target date for completion: December 1, 2013

Facility response: HCSM 218-GEC-19 Palliative Care Services Program will be
amended to include a minimum of 0.25 FTE MH professional and 0.25 FTE
administrative support person are assigned to the PCCT. The GEC Service Line
Manager is responsible for making this change. PCCT staff will receive education from
the PCC related to the HCSM changes.

In order to ensure sustainability, quarterly reports will be presented to the GEC Service
Line Manager until appropriate compliance is documented.




VA OIG Office of Healthcare Inspections                                                         29
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


Recommendation 16. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: March 1, 2014

Facility response: Education will be provided to all Acute Care RNs and CNAs on
accurate documentation of location, stage, risk scale score and date pressure ulcer
acquired. Education will also be provided on pressure ulcer recognition and staging.
The Acute Care Nurse Manager, Acute Care Assistant Nurse Manager and the Facility
Wound Care Nurse are responsible for providing this education.

Pressure Ulcer documentation will be added as a monitor to the Acute Care monthly
chart audit process completed by the Acute Care Nurse Manager and the Acute Care
Assistant Nurse Manager. Quarterly reports will be reviewed by the Medical Records
Committee (MRC) and by the Nurse Executive Board (NEB).

In order to ensure sustainability, quarterly reports will continue until 90% compliance in
three consecutive months is achieved.

Recommendation 17. We recommended that processes be strengthened to ensure
that all patients discharged with pressure ulcers receive dressing supplies prior to being
discharged and that compliance be monitored.

Concur

Target date for completion: March 1, 2014

Facility response: Education will be provided to the Acute Care RNs that discharge
documentation must include supplies and/or treatment items given to patients
discharged with pressure ulcers. The Acute Care Nurse Manager, Acute Care Assistant
Nurse Manager and the Facility Wound Care Nurse are responsible for providing this
education.

Documentation of Pressure Ulcer supplies given to patients at discharge will be added
as a monitor to the Acute Care monthly chart audit process completed by the Acute
Care Nurse Manager and the Acute Care Assistant Nurse Manager. Quarterly reports
will be reviewed by the MRC and by the NEB.

In order to ensure sustainability, quarterly reports will continue until 90% compliance in
three consecutive months is achieved.




VA OIG Office of Healthcare Inspections                                                         30
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


Recommendation 18. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients at risk
for and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: March 1, 2014

Facility response: In order to ensure that the Acute Care staff provide and document
pressure ulcer education for patients at risk for and with pressure ulcers and/or their
caregivers and that compliance is monitored, the following steps have been taken:

Education will be provided to the Acute Care RNs that documentation must include
pressure ulcer education for patients at risk for and with pressure ulcers and/or their
caregivers. The Acute Care Nurse Manager, Acute Care Assistant Nurse Manager and
the Facility Wound Care Nurse are responsible for providing this education.

Documentation of Pressure Ulcer education will be added as a monitor to the Acute
Care monthly chart audit process completed by the Acute Care Nurse Manager and the
Acute Care Assistant Nurse Manager. Quarterly reports will be reviewed by the MRC
and by the NEB.

In order to ensure sustainability, quarterly reports will continue until 90% compliance in
three consecutive months is achieved.

Recommendation 19. We recommended that the facility establish staff pressure ulcer
education requirements and that compliance be monitored.

Concur

Target date for completion: March 1, 2014

Facility response: Education will be provided to the Acute Care RNs and CNAs as noted
in Recommendations #17, #18 and #19. Additionally, annual completion of Mosby’s
online education and competency test will be required of all Acute Care RNs with a copy
of the test maintained in the staff competency folder.

The Acute Care Nurse Manager, Acute Care Assistant Nurse Manager and the Facility
Wound Care Nurse are responsible for providing this education. Completion of the
Mosby’s online education and competency test will be monitored monthly by the Acute
Care Service Line Manager with Quarterly reports to the NEB, the oversight committee.

In order to ensure sustainability quarterly reports will continue until 100% compliance in
three consecutive months is achieved.




VA OIG Office of Healthcare Inspections                                                         31
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ


Recommendation 20. We recommended that nursing managers monitor the staffing
methodology that was implemented in August 2013.

Concur

Target date for completion: March 1, 2014

Facility response: Outbrief to the Director for final determination of target nursing hours
per patient day (NHPPD) for each nursing unit will occur on November 4, 2013. The
Associate Director for Patient Care Services/Nurse Executive (ADPCS/NE) is
responsible for implementation of Staffing Methodology.

Effective December 1, 2013, all nursing inpatient and long term care units will monitor
actual nursing hours per patient day and will perform an analysis of monthly variance
from target NHPPD exceeding 10.0%.

The Acute Care and Long Term Care Nurse Managers are responsible for monitoring,
analysis of variance, and creation/implementation of corrective action plans as
appropriate. Monthly results will be reported to the ADPCS/NE with quarterly reports to
the oversight committee, Nurse Executive Board.

In order to ensure sustainability, monitoring will continue until 90% compliance is
achieved in three consecutive months.




VA OIG Office of Healthcare Inspections                                                         32
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Sandra Khan, RN, BSN, Team Leader
Contributors            Josephine Biley Andrion, RN, MHA
                        Elizabeth Burns, MSSW
                        Deborah Howard, RN, MSN
                        Judy Montano, MS
                        Glen Pickens, RN, MHSM
                        Katrina Young, RN, MSHL
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Derrick Hudson
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         33
                             CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Southwest Health Care Network (10N18)
Director, Northern Arizona VA Health Care System (649/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jeff Flake, John McCain
U.S. House of Representatives: Paul A. Gosar


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         34
                                     CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ
                                                                                               Appendix G

                                                 Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
2
   References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
    Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
    Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
    September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
    January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
    Safety and Health Administration, the National Fire Protection Association, the American National Standards
    Institute, the Association for the Advancement of Medical Instrumentation, and the International Association of
    Healthcare Central Service Materiel Management, the Association for Professionals in Infection Control and
    Epidemiology.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
    Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                         35
                                     CAP Review of the Northern Arizona VA Health Care System, Prescott, AZ



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
7
  References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and Occupational Safety and Health Administration (OSHA) regulations.




VA OIG Office of Healthcare Inspections                                                                        36
